<html>
<title> - [H.A.S.C. No. 115-38] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








 
                         [H.A.S.C. No. 115-38]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                      MEMBER DAY--NATIONAL DEFENSE

                    PRIORITIES FROM MEMBERS FOR THE

          FISCAL YEAR 2018 NATIONAL DEFENSE AUTHORIZATION ACT

                               __________

                              HEARING HELD

                             APRIL 27, 2017



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-824                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


























                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                Ari Zimmerman, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Carter, Hon. John R., a Representative from Texas................     6
Chabot, Hon. Steve, a Representative from Ohio...................     2
Crawford, Hon. Eric A. ``Rick,'' a Representative from Arkansas..     9
Dunn, Hon. Neal P., a Representative from Florida................    11
Johnson, Hon. Mike, a Representative from Louisiana..............    13
Loebsack, Hon. David, a Representative from Iowa.................     7
Walz, Hon. Timothy J., a Representative from Minnesota...........     4

                                APPENDIX

Prepared Statements:

    Carter, Hon. John R..........................................    28
    Chabot, Hon. Steve...........................................    21
    Crawford, Hon. Eric A. ``Rick''..............................    30
    Dunn, Hon. Neal P............................................    32
    Johnson, Hon. Mike...........................................    33
    Loebsack, Hon. David.........................................    29
    Walz, Hon. Timothy J.........................................    25

Documents Submitted for the Record:

    Arrington, Hon. Jodey C., a Representative from Texas........    41
    Barr, Hon. Andy, a Representative from Kentucky..............    43
    Bustos, Hon. Cheri, a Representative from Illinois...........    45
    DelBene, Hon. Suzan K., a Representative from Washington.....    47
    Gottheimer, Hon. Josh, a Representative from New Jersey......    48
    Lieu, Hon. Ted, a Representative from California.............    50
    Panetta, Hon. Jimmy, a Representative from California........    52
    Thompson, Hon. Mike, a Representative from California........    54
    Velazquez, Hon. Nydia M., a Representative from New York.....    56
    Young, Hon. Don, a Representative from Alaska................    62

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
    
  MEMBER DAY--NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL 
              YEAR 2018 NATIONAL DEFENSE AUTHORIZATION ACT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, April 27, 2017.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets today to receive testimony and input 
from our distinguished colleagues. And let me just say, we are 
very grateful to the Members who will testify today, as well as 
the Members who have submitted written testimony, for their 
interest, for their input, advice and guidance, which always 
assists our annual defense authorization bill.
    Let me ask unanimous consent that the written testimony of 
those members who are not able to appear in person be included 
in the record. Without objection, so ordered.
    [The documents referred to can be found in the Appendix 
beginning on page 41.]
    The Chairman. And before turning to our distinguished 
witnesses, let me yield to the ranking member for any comments 
he would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate the 
opportunity to have this hearing.
    This is a very big bill that covers a lot of different 
subjects, and just because you are not on the committee doesn't 
mean it isn't important to you. So I think it is always 
important to hear from other Members throughout the body. I 
thank the chairman for his leadership in doing his best and our 
best to include those thoughts and ideas as best we can in our 
bill.
    With that, I yield back. Thank you.
    The Chairman. I thank the gentleman.
    And first up we have the distinguished chair of the Small 
Business Committee, the committee that has made a number of 
contributions to our bill over the years. We appreciate the 
working relationship we have had. The gentleman from Ohio is 
recognized for any comments he would like to make.

   STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE FROM OHIO

    Mr. Chabot. Thank you very much, Mr. Chairman and Ranking 
Member Smith. We appreciate the cooperation that we have had 
with this committee for years.
    I would note that our ranking member, who we have a very 
good working relationship with, Nydia Velazquez of New York, 
had hoped to be here but, unfortunately, she is tied up on the 
floor right now, so won't be able to attend personally. But she 
is here in spirit.
    We thank you for the opportunity to share a few thoughts 
about the fiscal year 2018 National Defense Authorization Act, 
NDAA. Let me begin by thanking your committee, all the 
committee members, for its longstanding collaboration with the 
House Small Business Committee. The successful passage of 
previous years' NDAAs were victories for our national security, 
for our men and women in uniform, and for our small-business 
industrial base, which is very critical and something obviously 
our committee cares about a lot. I look forward to continuing 
that relationship with this year's bill.
    We recognize that this committee has been working with the 
Department of Defense [DOD] to pursue acquisition reform. Our 
Nation needs a robust small-business industrial base capable of 
equipping our military efficiently and at a reasonable cost.
    Improving defense procurement is vital to the health of our 
economy and directly benefits our Armed Forces. Small defense 
contractors have consistently proven that they are capable, 
agile, and innovative, providing better quality products and 
services to our military, often faster and cheaper than their 
non-small competitors. When there are fewer offers, 
competitiveness would decrease and choices would become more 
limited and it would become more expensive.
    Unfortunately, the declining number of companies competing 
for Federal contracts threatens competition and harms 
readiness. The Small Business Committee has held over a dozen 
hearings examining these roadblocks. As Chairman Thornberry 
frequently says, we need to focus on getting more defense for 
the dollar. Small businesses are part of that solution.
    To this end, nine members of the Small Business Committee 
introduced bipartisan contracting and entrepreneurship bills 
this year. It is truly impressive to see both parties working 
towards a common goal.
    I would like to take a moment and thank the ranking member 
again for her dedication and support. As I mentioned, we work 
in a very bipartisan manner. We have collected these 
commonsense reforms into two bills, H.R. 1773, the Clarity for 
America's Small Contractors Act of 2017, and H.R. 1774, the 
Developing the Next Generation of Small Businesses Act. These 
bipartisan provisions were marked up and approved unanimously 
by the Small Business Committee last year. I provided more 
detail in my written statement. I would like to share with you 
how these two bills help small contractors.
    First, they modernize the Small Business Act to ensure 
clear and consistent language across Federal procurement 
programs. It should be easy for the DOD contracting officers to 
work with small businesses, not more difficult.
    Second, they strengthen our government's small-business 
advocates to promote competition and make sure the laws on the 
books, including the NDAA, are followed.
    Third, they increase transparency within our Federal 
procurement system, allowing Congress to understand which 
procurement programs are successful and which need a closer 
look. This will also make it easier to catch fraud and abuse 
within the programs.
    Finally, H.R. 1774 reauthorizes the SBA's [Small Business 
Administration's] entrepreneur development programs to further 
the important work being done by your committee. This ensures 
the SBA is effectively introducing the next generation of 
entrepreneurs to Federal contracts. By strengthening our small 
businesses, we are in turn strengthening our industrial base.
    I respectfully ask the committee to incorporate these 
provisions into this year's NDAA, and we look forward to 
continuing to work with this committee, and we are happy to 
answer any questions.
    Mr. Chairman, I think I stopped right on time there, too.
    [The prepared statement of Mr. Chabot can be found in the 
Appendix on page 21.]
    The Chairman. I appreciate it. And without objection, the 
written testimony of all of our witnesses will be made part of 
the record as well.
    Are there any questions or comments for the chairman?
    The gentleman from California.
    Mr. Knight. Thank you, Mr. Chairman.
    First, I would like to thank Chairman Chabot and the 
ranking member for all their hard work. I am honored to be a 
member of both the House Armed Services Committee and the 
Committee on Small Business, and I have seen firsthand how 
important small businesses are to giving warfighters the tools 
they need in a cost-effective manner.
    Our small-business industrial base has a unique ability to 
strengthen our contracting process by driving innovation and 
competition in the marketplace. And just as the chairman said, 
they are very agile so that they can move quickly in times of 
need. Small businesses tend to be more nimble and can often 
respond to market needs. A healthy small-business industrial 
base benefits the taxpayer from increased competition, 
innovation, and job creation.
    I support the work being done by Chairman Chabot and 
Ranking Member Velazquez to increase contracting opportunities 
for small businesses and strengthen entrepreneurial development 
programs that help eliminate barriers of entry and diversify 
our industrial base.
    Part of that diversification must also come from the people 
who enter the industrial base in the first place and 
subsequently make it thrive. That is why I offered H.R. 1680, 
the Women's Business Centers [WBC] Improvement Act of 2017, for 
which I have advocated for the inclusion of FY18 [fiscal year 
2018] NDAA. This bill would make changes to the WBC program, a 
Federal network of educational centers that provide resources 
and counseling to female entrepreneurs.
    Currently, the program requires clarification in the areas 
of oversight and a clearer accreditation process, and this 
legislation aims to address these problems and increase funding 
for the program so it can expand and improve service quality.
    I look forward to working with the chairman, ranking 
member, and my colleagues on measures like this and others to 
increases opportunities for our small-business community.
    Thank you, Mr. Chairman, and I yield back.
    The Chairman. Any other questions or comments?
    Mr. Chairman, thank you. We look forward to working with 
you again this year as we have before on a bipartisan basis. 
And we certainly appreciate those Members who are on both 
committees that will take a particular interest in our work.
    So thank you.
    Mr. Chabot. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Next, we turn to the distinguished ranking member on the 
Veterans' Affairs Committee, a Member who used to be a member 
of this committee, and I was a little sad to see him go, I have 
to say. But I appreciate the distinguished gentleman from 
Minnesota coming back today, and the gentleman is recognized.

   STATEMENT OF HON. TIMOTHY J. WALZ, A REPRESENTATIVE FROM 
                           MINNESOTA

    Mr. Walz. Well, thank you, Mr. Chairman, and to Ranking 
Member Smith, and members of the committee. I, too, am saddened 
that I am not on this committee, and I would like to extend a 
thank you to you and your professional staff. There are no 
stronger public servants, and their willingness to work with 
everyone in the caucus, whether they are on this committee or 
not, to strengthen our national defense is truly admirable.
    I submit testimony today in my strong support of several 
efforts within the fiscal year 2018 National Defense 
Authorization Act. These efforts will serve better the lives of 
our constituents, and also those serving in the Armed Forces. 
It will also strengthen our national security as a whole.
    Currently we find our military actively engaged in two 
unconventional wars and preparing for the possibilities of a 
third or even fourth simultaneous and potentially conventional 
focused fight. The requirements we as a Nation continue to 
place upon our military are ever increasing, which for the last 
almost two decades has necessitated continuous call-up of the 
Reserve Component. The contemporary National Guard and Reserve 
Components have increasingly become operationally vital to the 
conduct of ongoing operations and contingency plans.
    To this end, I must insist upon the fair treatment of our 
Reserve Components and the proper attention and planning for 
their continued operational tempo. The Reserve Component 
Benefits Parity Act, introduced by Representatives Palazzo, 
Franks, Shea-Porter, and myself, is an important step towards 
ensuring fairness for our Reserve Component troops who are 
involuntarily mobilized to serve this Nation under Title 10 
U.S. Code 12304b. Many Members of Congress have requested its 
inclusion as a legislative proposal within this NDAA, and the 
bill has garnered broad bipartisan support, with over 60 
Members committing to cosponsor the measure.
    This legislation supports previous Department of Defense 
efforts to provide parity and benefits under section 12304b, 
via amendments to title 5, 10, 37, and 38 of the Army 
Transition Plan, dated November of 2016. It also identifies the 
rectification of this issue as vitally important to Reserve 
Component and the military as a whole. Inclusion of this 
legislation will correct the health, education, leave, pay, and 
retirement benefits applicable to Reserve Components service 
members who do mobilize under 12304b.
    Increases in readiness must also accompany the increased 
operational tempo of the Reserve Component. To do so requires 
more training days annually than have been required in the 
past, for which this committee has thoughtfully provided 
authorization and appropriate increases to funding, which I am 
incredibly grateful for.
    This fundamental shift towards an operational reserve 
force, though resulting in enhanced readiness, comes at a cost 
to this Nation's employers. Employers are decreasingly likely 
to hire traditional National Guard and Reserve Component 
members given their increased utilization over the last several 
years, which is projected to continue indefinitely. I encourage 
that the strategic implications of this shift be 
comprehensively researched by DOD and communicated and worked 
with our employers across this Nation.
    And finally, during the 1990 and 1991 Persian Gulf war, 
nearly 700,000 soldiers, sailors, airmen, and marines deployed 
to Iraq and the surrounding area answering this Nation's call 
to arms. Following the war, many veterans began to experience 
multiple complex and persistent symptoms that have not to date 
been explained by traditional medical diagnosis. Gulf war 
illness has become that generation's Agent Orange. This illness 
could possibly affect as many as 250,000 of these veterans.
    It is imperative that DOD coordinate with the Veterans 
Affairs Administration and the Gulf War Illness Research 
Program Consortium, part of the congressionally directed 
medical research program, to declassify specific information 
necessary to enable the diagnosis and treatment of Gulf war 
illness veterans. It has been over 26 years since the war 
ended, and the necessary classified record should be reasonably 
expected to be declassified in accordance with all applicable 
laws and regulations.
    I want to thank the committee again for the work you do. 
Thank you for allowing me to testify in front of you. And thank 
you for the care that you give to our Nation's veterans.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Walz can be found in the 
Appendix on page 25.]
    The Chairman. I appreciate it and appreciate certainly the 
care and interest the gentlemen shows and works on for veterans 
and for Guard and Reserve.
    Any questions or comments for the gentleman?
    Again, thank you for being with us.
    Next, we turn to the distinguished gentleman from Texas, 
member of the Defense Appropriation Subcommittee, as well as 
various other hats he wears.
    Judge Carter, we appreciate you being with us. You are 
recognized.

 STATEMENT OF HON. JOHN R. CARTER, A REPRESENTATIVE FROM TEXAS

    Mr. Carter. Thank you, Mr. Chairman. Chairman Thornberry, 
Ranking Member Smith, thank you for allowing me to testify here 
today on what I believe is a major problem facing the United 
States Army.
    I am the proud representative of Fort Hood, Texas, as well 
the co-chairman of the Congressional Army Caucus. I work every 
day to ensure the soldiers I represent and all our men and 
women in uniform have the resources they need to do their job 
as safely and as effectively as possible.
    I believe the work of this committee is critical to the 
well-being of our service members and their families. So thank 
you both for what you do each and every day to serve those who 
serve us.
    Today, the revisionist powers are annexing territory, 
challenging and probing the post-World War II political world 
order, and using anti-access and area denial technology to 
thwart our ability to project power. These nations have also 
modernized their ground forces and the tactical overmatch that 
the U.S. ground forces have enjoyed for decades is now gone. As 
U.S. Army Vice Chief of Staff General Allyn recently stated, we 
are ``out-ranged, outgunned, and outdated.''
    On our present course, the U.S. Army will not be 
sufficiently modernized to deter and defeat potential enemies. 
The Army's current fleet of ground combat vehicles was 
conceived in the 1970s and built in the 1980s. While multiple 
upgrades of these vehicles have occurred, they were not 
designed for the requirements of today's and tomorrow's wars.
    In 8 years, the Army will make a decision whether or not to 
keep the current 35-year-old Bradley Fighting Vehicle. They 
would keep it for the next 50 to 70 years. The scheduled 
upgrades for the Abrams tank will take 26 years to complete and 
completely outfit for the entire Army, while not solving many 
of the problems of being outgunned anyway. And for many 
reasons, like having to fund current readiness requirements at 
higher than expected levels, the Army has no program in place 
to procure the next-generation ground combat vehicles.
    The risk an overmatched Army presents to the joint force 
fight is untenable. It is almost indefensible to us as Members 
of Congress to sit idly by and not give our soldiers the 
capabilities they will need to dominate the battlefield in 
future wars.
    I have introduced H. Res. 238 to support the U.S. Army and 
encourage them to expedite their efforts to procure and field 
the next generation of ground combat vehicles, as well as their 
current modernization strategy. Our ground combat vehicles are 
overmatched today, and the longer we wait, the longer our 
soldiers cannot provide the adequate deterrence or win if 
deterrence fails without high cost in blood and treasure, and 
this is one of the most threatening national security 
environments our Nation has ever faced.
    As you begin your process of drafting the FY 2018 National 
Defense Authorization Act, I respectfully request that the 
committee include the report language contained within my 
resolution in the National Defense Authorization Act.
    Thank you both for your staunch support for our military 
service members and their families. I look forward to 
continuing to work with you on this important issue.
    [The prepared statement of Mr. Carter can be found in the 
Appendix on page 28.]
    The Chairman. Well, I appreciate the gentleman highlighting 
this issue for the Army. There is no question that we have 
vehicles that are way past their design life and the Army is in 
need of updates, as are other services. So certainly between 
our two committees, I think we can certainly make progress. So 
I appreciate the gentleman highlighting this.
    Are there other questions or comments for the gentleman 
from Texas?
    We appreciate the gentleman being with us.
    Mr. Carter. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Next, we turn to another former member of this committee, 
but are grateful that he has returned with us today. The 
gentleman from Iowa, Mr. Loebsack, is recognized.

  STATEMENT OF HON. DAVID LOEBSACK, A REPRESENTATIVE FROM IOWA

    Mr. Loebsack. Thank you, Mr. Chairman. And I want to thank 
both you and Ranking Member Smith for allowing me this 
opportunity to testify today. But before I get into the 
particular topic here, I do want to thank both of you for your 
leadership. I know that, having served on this committee for 8 
years, I have every confidence that you folks know what it 
takes to keep America safe. And on behalf of my two Marine 
children in particular, I want to thank you for doing what you 
can to provide for our troops in all of our services. So thank 
you for your leadership, and you, Mr. Smith, as well.
    Today, I am very happy to have the opportunity to discuss a 
defense issue of importance, not just to my district in Iowa, 
but to the warfighter, to the U.S. Army, indeed to the 
taxpayer. The interests of all are well served by this 
initiative. And what I am talking about is the Iowa Army 
Ammunition Plant [IAAAP]. It is one of the Army's six 
government-owned contractor-operated, the GOCO ammunition 
plants around the country. Built in 1942, it is a vital part of 
our munitions industrial base with the production of high-
velocity 40 millimeter grenades, C4 blocks, tank and artillery 
rounds, and missile warheads. And I have visited this 
particular plant on a number of occasions.
    Today the IAAAP--that is a mouthful--employs over 650 
skilled professionals and is located in my district near the 
banks of the Mississippi River by Burlington, Iowa. 
Historically, however, the IAAAP has not received sufficient 
modernization funding to upgrade critical manufacturing 
processes.
    An example of this is one of the production lines, Line 3A, 
which is the Nation's primary large caliber ammunition melt 
pour facility. Line 3A is a large spread-out manufacturing 
line, requiring manual touch labor and lacking the adaptability 
needed for implementing new manufacturing technologies. Its 
modernization is long overdue.
    Modernization of this Army-owned line would yield more 
precise process controls, automation, environmental controls, 
and a greatly reduced footprint. My understanding is that the 
proposed plan to modernize this line would reduce costs, 
increase efficiencies, and pay for itself in less than 5 years. 
It seems like a pretty good deal to me.
    I hope the HASC [House Armed Services Committee] will find 
merit in this initiative and will support the modernization of 
Line 3A at IAAAP that will provide so many benefits to so many 
stakeholders.
    And I thank the chairman again and the ranking member for 
your time and your consideration. Thank you.
    [The prepared statement of Mr. Loebsack can be found in the 
Appendix on page 29.]
    The Chairman. I appreciate the gentleman raising this 
issue. It is certainly something we need to look into further, 
and we will. And I appreciate the gentleman.
    The gentlelady from Missouri.
    Mrs. Hartzler. Yes, gentleman, I appreciate you raising 
this issue because I have, just outside of my district, I am 
very supportive of the Lake City Ammunition Facility. Same 
thing, built in 1940s, and severely in need of modernization.
    And so I did have an amendment in NDAA to add $20 million 
more for our ammunition in this particular plant. We produce 
all of the small caliber ammunition for the entire Army. It is 
right there. And I see you do the large caliber.
    But as I have looked into this issue, it is very clear all 
of these plants need modernization and it is imperative that we 
take these steps. So I appreciate you raising this issue there. 
Maybe we can work together on this and try to ensure that we 
get the modernization that is needed so that we are not 
vulnerable.
    Just FYI [for your information], 2 weeks ago there was an 
accident at Lake City. I don't think I have had a chance to 
share with the chairman about this. In the primer facility 
there was an explosion and, sadly, we lost a man that had 
worked there for over 30 years. So they are currently shut 
down, which I have been in contact with the commander there, 
and as well as Orbital ATK, that supervises that to make sure 
that it won't impact our warfighters right now. They are going 
through an inspection process and hope to get that back up and 
running very shortly.
    But it just shows the vulnerability. And I don't believe--
well, they are doing an inspection, we don't know yet the cause 
of that tragedy. But it is imperative that these facilities 
have the safety provisions and the modernization they need so 
that we don't have any accidents or any potential stoppage of 
production.
    Mr. Loebsack. Thank you.
    Mrs. Hartzler. Thank you for raising this awareness. I look 
forward to working with you. And thank you very much, Mr. 
Chairman.
    Mr. Loebsack. Thank you.
    The Chairman. As a matter of fact, I did know about that 
accident; the staff had emailed me right away, because these 
plants are so significant for the country's security. And like 
Judge Carter was talking about with the Army vehicles, we have 
deferred updating them all way too long. So I appreciate both 
the gentlelady and the gentleman from Iowa and will work with 
them on this.
    Are there any other questions or comments on the gentleman 
from Iowa? If not, we thank the gentleman for being here and 
for raising the points.
    Mr. Loebsack. Thank you so much.
    The Chairman. Next, we turn to the distinguished gentleman 
from Arkansas, who is, I believe, chairman of the EOD 
[Explosive Ordnance Disposal] Caucus.
    Mr. Crawford. Yes.
    The Chairman. We always appreciate the gentleman and the 
caucus' input on this vital part of our national defense 
efforts. The gentleman is recognized.

 STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE 
                         FROM ARKANSAS

    Mr. Crawford. Thank you, Chairman Thornberry and Ranking 
Member Smith and distinguished members of the committee. Once 
again, I am here to testify before the committee regarding 
explosive ordnance disposal, or EOD, priorities for the 2018 
NDAA.
    The first priority for the caucus is to reengage last 
year's EOD acquisition reform. Last year, Representative Davis 
submitted an amendment that would have established a permanent 
joint EOD research, development, and acquisition [RDA] program 
under the supervision of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, or AT&L. During 
conference with the Senate, this reform measure was changed to 
enable DOD to examine the current program and provide 
recommendations.
    The Department's findings were to leave the current program 
as it is. This means DOD's oversight of the EOD technology and 
training program is performed by the Under Secretary of Defense 
for Policy, not the Under Secretary of Defense for AT&L. This 
is troublesome because the oversight officer's position is 
scheduled to be eliminated.
    Additionally, the current system of acquisition causes the 
services to coordinate on their equipment needs, but then they 
each have to compete separately through the four service 
requirement systems in order to field what is called joint 
common equipment. This duplication of efforts results in 
inefficiency and increased costs to the taxpayer.
    More importantly, the current acquisition system has 
completely failed to deliver critical equipment, such as X-
rays, robots, and electronic jammers to the field. Instead, 
each service is buying commercial off-the-shelf items to meet 
its needs. The Radiographic Imaging System for EOD program is 
fielding systems that are not compatible with Windows 10 
software, are routinely delivered with 50 percent of the 
systems broken or unusable, and are so poorly thought-out that 
the Joint EOD Technology Center issued a safety of use message 
saying that using the system could under certain threats cause 
injury to the user. The Army needs an additional $37.5 million 
to purchase these commercial systems.
    This failure to deliver essential equipment that meets the 
requirements on schedule has created a reliance on various 
commercial solutions that are not joint and will create a 
logistics nightmare for the joint force commander when 
deployed.
    We on the caucus urge the committee to work with your 
Senate colleagues to develop a real joint EOD RDA program under 
the appropriate supervision of the Under Secretary of Defense 
for AT&L with a funding line managed by the Defense Threat 
Reduction Agency in order to ensure proper accounting and 
funding of a small but critical capability and appropriate 
budget justification documentation to ensure proper oversight.
    The caucus also continues to be concerned with the capacity 
of the Army's EOD program. Over the past fiscal year, roughly 
one-third of the Army's EOD force has been cut. Current 
military deployments to the Middle East have decreased in the 
past years, but the threat of IEDs [improvised explosive 
devices] is not going away at home or abroad. IEDs remain a 
cheap, easy-to-assemble, and effective weapon that can have a 
strategic effect. Many briefings talk about the elimination of 
chemical or biological weapons, but virtually no mention is 
made of the EOD men and women who are qualified to disable, 
defuse, and dismantle these weapons.
    While working with HASC staff we noticed very little EOD 
capacity identified in specific operational plans. We are 
concerned that the EOD capability is being overlooked in 
various plans which will result in a lack of capacity when 
needed. We recommend limiting the further reduction of the 
Army's EOD forces to match that of other sustainment 
capabilities.
    The capacity cuts and lack of EOD planning is caused by a 
lack of appropriate EOD senior leaders within the Army. Many of 
the Army's higher headquarters, such as Corps and Army level, 
have no EOD officer to conduct planning. Additionally, the lack 
of an EOD general officer continues to hamstring the further 
development of this important capability within the Army.
    Therefore, the caucus urges HASC to consider establishing 
an EOD branch within the Army sustainment community with a 
brigadier general as the chief of that branch. We fully 
understand the difficulty of creating a new general officer 
position and recommend, as Congress did with other newly 
created branches, giving the Army a limited exclusion to the 
general officer cap for the purposes of manning a new branch.
    Finally, the National Guard's Civil Support Teams are the 
first line of defense for individual States in the instance of 
a chemical, biological, radiological, or nuclear threat. 
However, EOD technicians are a missing and much-needed element. 
The caucus recommends a National Guard EOD program which will 
authorize full-time national EOD positions, enabling the 
National Guard to provide 24/7 EOD support to protect our 
Nation. This will allow EOD techs transitioning out of the 
Active Components, who currently have limited options, to 
transition into the National Guard.
    Apparently, my time has expired, so I will yield for any 
questions that you might have.
    [The prepared statement of Mr. Crawford can be found in the 
Appendix on page 30.]
    The Chairman. Well, I appreciate the gentleman raising 
these points. And obviously your full written statement will be 
made a part of the record.
    The only thing I would mention to the gentlemen is we are 
in the process of reorganizing the AT&L functions, and so we 
will want to keep in communication with you on that point.
    Mr. Crawford. Thank you.
    The Chairman. But I understand the gentleman's point about 
emphasis in the Army and having the appropriate attention on 
this, because IEDs are not going away. There is no question 
about that.
    Mr. Crawford. Correct. Thank you.
    The Chairman. And so we have to have that capability with 
the proper priority.
    Any other questions, comments to the gentleman from 
Arkansas? If not, we appreciate again the gentleman being here 
and his input into our process.
    Next, we will turn to one of the newer Members of Congress. 
We appreciate the gentleman from Florida being with us today. 
We have already had unanimous consent that your full written 
statements will be made part of the record. And we would be 
pleased to hear any comments the gentleman from Florida would 
like to make.
    Mr. Dunn.

 STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE FROM FLORIDA

    Dr. Dunn. Thank you very much, Mr. Chairman, Ranking Member 
Smith, and other distinguished members of the committee. It is 
my honor to testify today.
    I am here to express support for incorporating House Rule 
1968, the Military Assets Protection Act, into the National 
Defense Authorization Act for fiscal year 2018. I recently 
introduced this legislation with Representative Hanabusa of 
Hawaii, Representative Rosen, and also Generals Bergman and 
Bacon, both high-hour military combat pilots.
    The emerging threat of unmanned aircraft systems piloted by 
our enemies was brought to my attention by military leaders at 
Tyndall Air Force Base in Florida's Second Congressional 
District, as well as by General Mike Holmes, the commander of 
all Air Combat Command, and Lieutenant General Scott Williams, 
the commander of the First Air Force, who is responsible for 
protecting the airspace of all North America.
    This committee has also received testimony regarding the 
seriousness of this threat. On March 8 of this year, General 
John Hyten, the commander of the U.S. Strategic Command, stated 
his concern about ``unauthorized flights of unmanned aerial 
systems over Navy and Air Force installations. These intrusions 
represent a growing threat to the safety and security of 
nuclear weapons and personnel.''
    This is not a theoretical threat. Terrorist groups, 
including the Islamic State, have increasingly used armed 
drones against our allies overseas. As the tactics and 
technology of weaponized drones are proven on battlefields 
abroad, they will be exported to our shores for attacks and 
espionage against U.S. military installations here at home. Our 
Armed Forces face a new threat from drones and the law needs to 
catch up.
    As you may know, the Federal Aviation Administration [FAA] 
recently regulated drone flights at 133 different military 
facilities in the form of airspace restrictions. Although this 
is a good first step, we cannot expect terrorists to follow the 
FAA's notices to airmen. And importantly, military personnel 
currently lack the authority and requisite shield against 
liability to interdict drones that compromise the security of 
our assets, installations, classified information, and 
personnel.
    For this reason, we drafted the Military Assets Protection 
Act in consultation with the DOD and the Air Force Office of 
the Judge Advocate General. In the National Defense 
[Authorization] Act for 2017 this committee made critical 
progress on this same issue. The Military Assets Protection Act 
will further clarify and strengthen the Defense Department's 
legal authority to interdict drones that threaten homeland 
assets and installations.
    I respectfully request that the committee consider House 
Rule 1968 as it develops the National Defense Authorization Act 
for fiscal year 2018, and I want to thank you all for your time 
and for the opportunity to speak to you on this important 
issue.
    [The prepared statement of Dr. Dunn can be found in the 
Appendix on page 32.]
    The Chairman. Well, I appreciate the gentleman's work on 
this. There is no question within the last year we have seen 
enemies using armed drones against us, against our allies, as 
the gentleman points out. And we have issues here at home. And 
we need to have the laws keep up with the change in tactics and 
technology, as the gentleman said. So I think that is exactly 
right.
    The gentleman from Louisiana.
    Dr. Abraham. Thank you, Mr. Chairman.
    Doc, I will just certainly agree with you. Even the FAA 
doesn't know really what to do with all the drones. There are 
more drones on the civilian side now than there are aircraft 
flying. And certainly they can be militarized, weaponized, and 
they are getting bigger, better, and faster. The optics are 
impressive.
    So good for you guys for highlighting this. I know the 
chairman has highlighted it in a previous committee meeting. 
But it is a threat that is going to become more and more 
critical as time moves on quickly here. Thank you for your 
input.
    Dr. Dunn. Thank you, Dr. Abraham.
    The Chairman. Great. Dr. Dunn, thank you for being with us, 
and we will certainly take a look at your legislation and 
continue to work together on this issue.
    Dr. Dunn. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Next, we turn to another distinguished gentleman from 
Louisiana, Mr. Johnson, also a new Member of Congress. We are 
grateful that you would be with us today. Your written 
statement is part of the record, and you are recognized for any 
comments you would like to make.

STATEMENT OF HON. MIKE JOHNSON, A REPRESENTATIVE FROM LOUISIANA

    Mr. Johnson. Thank you, Mr. Chairman and Ranking Member 
Smith and members of the committee, including my good friend 
Dr. Abraham from the neighboring district. I really appreciate 
the opportunity to provide input during this committee's 
hearing today as we determine the fiscal year 2018 National 
Defense Authorization Act. I am going to read fast because we 
have some important information I would love to get into the 
record today.
    I have the honor of representing a congressional district 
that is home to both Fort Polk and the Barksdale Air Force 
Base, which are two, as you know, vital military installations 
for our Nation and our national security interests around the 
world. As I am sure you know, Fort Polk is home to the Army 
Joint Readiness Training Center [JRTC] and Barksdale is home to 
our Air Force Global Strike Command.
    As is evident with the actions of North Korea, we know we 
live in a highly uncertain and incredibly complex time, and it 
further highlights the importance of our bases.
    Due to today's time constraints I will try to focus 
primarily on just three areas that I think are in essential 
need of attention by the committee and the Congress: our U.S. 
nuclear enterprise, our U.S. Army forces, and ensuring 
appropriate missile defense needs are met for homeland defense 
and U.S. strategic alliances.
    Now, I am new to Washington, but one of the first things I 
did was meet with the generals based in my district given the 
importance of the roles they play in our daily global national 
security and the training of our Army soldiers. From those 
meetings and continued discussions over the past months 
engaging with these men and women who are working to ensure our 
Nation's security, I am even more convinced than ever that 
America needs these robust strategic deterrent capabilities and 
we have to continue to invest more in missile defense and 
ensure our Army has the appropriate levels of funding and 
readiness to adequately respond when called to fight.
    The U.S. should not only invest more in missile defense, 
given recent missile testing by North Korea and Iran, for our 
own immediate national security needs, but we should also 
continue to adequately invest in missile defense cooperation 
with Israel.
    Based on developing hostilities around the world, it is 
clear we have to step up our level of investment into our U.S. 
missile defenses, developing leading-edge conventional and non-
kinetic capabilities, modernizing our nuclear forces, a surety 
in our command and control, effective intelligence collection 
and support, and ensuring our Army force posture is adequately 
maintained with the right balance of highly trained, well-
equipped soldiers to quickly respond when called into action.
    Without adequate investment in these platforms and people, 
America will struggle to provide the necessary levels of U.S. 
national security at home and to assure the security of our 
allies and partners around the world.
    I would like to briefly speak to the nuclear weapons as 
they continue to play an integral role in the strategies of 
Russia, North Korea, Pakistan, India and China, as you know. In 
fact, according to many reports and as evidenced from recent 
aggressive actions, these countries are increasing their 
reliance upon and modernizing their capabilities, whether it be 
in their land, air, or sea-based forces. It is also very clear 
Iran has not given up its nuclear ambitions.
    Thankfully, despite ideological differences, Congress has 
clearly expressed support for the long-term commitment we have 
at Barksdale Air Force Base and for the majority of the nuclear 
triad. The decision to elevate Global Strike Command to a four-
star command has already started to yield important rewards, 
but there is still work to be done and budgets should fully 
address specific needs to achieve U.S. advancements to upgrade 
and maintain America's technological edge over our adversaries.
    Critical areas of need include upgrading nuclear command 
and control facilities; addressing the challenges of the B-52 
re-engine, which are facing catastrophic engine failures; the 
future of the B-21; and essential funding for what President 
Trump's own March budget deemed, quote, ``critical 
infrastructure maintenance,'' unquote, and warhead life 
extension programs to sufficiently modernize the nuclear 
security enterprise. As Secretary of Defense Mattis recently 
stated, ``We must ensure a war that can never be won will never 
be fought.''
    As members of this committee, you are well aware of the 
activity Global Strike Command oversees and its involvement in 
a wide array of strategic deterrence, global strike, and direct 
combat, including actions in Iraq, Syria, Yemen, and Nigeria. 
The Bomber Command, 8th Air Force, in charge of our aging fleet 
and Missile Command, and the 20th Air Force, in charge of the 
U.S.'s intercontinental ballistic missiles, are critical to 
deterrence and global strategy.
    In our ground capabilities, in the event that maintaining a 
capable and robust nuclear option doesn't suffice as a 
deterrent from war, it is also imperative we have capable and 
ready ground forces. Unfortunately, previous budget plans 
forced the Army to shrink at an unrealistic pace to the lowest 
levels in 50 years, as you know, and seriously threatened our 
Nation's long-term ability to carry the fight forward. These 
changes not only impacted the top line end strength numbers, 
but also the Army's ability to accomplish their missions and 
achieve necessary military readiness.
    My district is the proud home of the Fort Polk Army Base 
and it is important today to highlight how the Army has 
continued to solidify Fort Polk's footprint as a multipurpose 
military installation with state-of-the-art Joint Readiness 
Training Center. The base contains units that provide 
invaluable training for advise and assist roles and provide 
soldiers with the training and flexibility necessary to carry 
out the demands placed on them to secure victory.
    The exercise scenarios learned there replicate many of the 
unique situations and challenges the unit may face while 
deployed, and because of this, Fort Polk is uniquely suited for 
a number of upcoming Army plans, including planned expansion of 
the Army advise and assist missions, as it is the only combat 
training center in the Nation that also trains and deploys 
combat units.
    The Army recently completed its largest land purchase in an 
effort to provide even more robust training capabilities for 
brigade combat team rotations, an action that was warmly 
embraced by the local community.
    We have a number of issues that I can highlight, but I see 
that I am far out of time. Mr. Chairman, I will submit the 
written comments for the record. And I certainly appreciate the 
opportunity to show our support for our men and women in 
uniform. Thank you all for your critical work for the country. 
And I yield back.
    [The prepared statement of Mr. Johnson can be found in the 
Appendix on page 33.]
    The Chairman. Well, I appreciate the gentleman highlighting 
three very important issues. This committee has certainly 
focused on the nuclear deterrent, and missile defense, as you 
mentioned, is critically important, and the Army needs I think 
you have highlighted are very well taken.
    Any comments or questions?
    The gentleman from Louisiana.
    Dr. Abraham. Thank you, Mr. Chairman.
    I just want to say it is an honor for me to serve with the 
gentleman from Louisiana. Also his knowledge base, his passion, 
his tireless work effort, he is all over not only the district, 
but his State, highlighting the Armed Forces capabilities and 
certainly the deficiencies that he has mentioned with the B-52 
engine.
    And he is right, the JRTC at Fort Polk is not only prime, 
but it is ready to take on that AAA [Advise and Assist] 
battalion and brigade, so we would look forward to working with 
that. In Belle Chasse we have certainly some issues down there 
with some F-15 shortages that will occur shortly if we don't do 
something about it.
    So again, just a heartfelt thank you to Mike for his 
unwavering support of the Armed Forces, not only in Louisiana, 
but of the Nation.
    Thanks, Mike.
    Mr. Johnson. Thank you, sir.
    The Chairman. Any other questions or comments?
    I appreciate the gentleman taking time to be with us, as 
well as your input. Obviously, the committee will take all the 
input we have received today in written and oral form into 
consideration and try to come up with the best defense 
authorization bill we possibly can.
    At this point, the hearing stands adjourned.
    [Whereupon, at 10:45 a.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 27, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 27, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 27, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       
                                [all]
                                
                                
                                
                                
</pre></body></html>
